HHS/OIG-Audit--"Examination of the Administrative Costs Incurred Under the Health Insurance for the Aged and Disabled (Medicare) Part A,"(A-04-00-01207)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Examination of the Administrative Costs Incurred Under the Health Insurance for the Aged and Disabled (Medicare)
Part A," (A-04-00-01207)
December 14, 2000
Complete
Text of Report is available in PDF format (519 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our audit was to determine whether (1) Blue Cross and Blue Shield of Tennessee (BCBSTN) had established
effective systems on internal control, accounting and reporting for administrative costs and (2) the Final Administrative
Cost Proposals (FACP) presented fairly, in all material respects, the costs of program administration for the Part A program
in accordance with Part 31 of the Federal Acquisition Regulations as interpreted and amended by Appendix B of BCBSTN's
agreement with the Health Care Financing Administration (HCFA).
We determined that BCBSTN had generally established adequate systems for internal control, accounting and reporting for
administrative costs. Further, the administrative costs for the period October 1, 1995 through September 30, 1998 were
generally in accordance with Part 31 of the Federal Acquisition Regulations as interpreted and amended by Appendix B of
BCBSTN's agreement with HCFA. However, we identified $352,840 in charges reported on the FACPs for which we recommend disallowance
for the period October 1, 1995 through September 30, 1998.